                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: 110070028                                                                         Page 1 of 1



         A preliminary review 1 identified an individuae who held positions as president of a company
         and also as professor at a research university. 4 The company received SBIR Phase I and II
         awards from NSF. 5 The individual also served as PI (principal investigator) for an NSF award to
         the research university. 6                  ·


         We opened an investigation to determine whether the individual (1) misrepresented his
         company's research capabilities (2) was primarily employed with his company during SBIR
         grants on which the individual served as PI, as required by NSF award conditions, and
         (3) received award payments fraudulently.

         We did not substantiate illegalities or violations of award conditions. With regard to the
         company's research capabilities, we found that the company's proposals accurately described the
         company's capabilities and the allocation ofwork between the company and its subcontractor
         (the research university). The proposed and actual allocation of work complied with SBIR
         requirements. With regard to the individual's primary employment, we found that the individual
         did not serve as PI for his company's NSF awards, and that consequently the primary-
         employment requirement was inapplicable. The individual instead worked as a university
         researcher under a subcontract between the research university and his company.

         With regard to award payments, we did not find any fraudulent award payments. We did find,
         however, that the individual did not fully disclose to the research university a potential conflict
         of interests (COI) involving his role with the subcontract. The individual had disclosed his
         relationship with the company in an annual disclosure, but did not further disclose the
         relationship in the administrative processing of the subcontract.

         The individual no longer works at the research university. The research university has taken
         corrective action to help prevent future potential COIs with faculty members who have outside
                                                                        1
         business interests.

         Accordingly, this investigation is closed.




NSF OIG Form 2 (I 1102)
